NRC: OIG/98A-03 - Procurement Streamlining Measures Implemented: Improvements Can Be Made
Skip to Main Page Content
Skip to Search
Skip to Site Map Navigation
Skip to Footer Links
Home
FAQ
Glossary
Facility Locator
What's New
Site Help
Index A-Z
Contact Us
Browse Aloud
Email Updates
Search NRC
Report a Safety Concern
Nuclear Reactors
Power Reactors
Research & Test Reactors
Operating Reactors
Operator Licensing
New Reactors
Advanced Reactors
Operator Licensing for New Reactors
Nuclear Reactor Quick Links
Nuclear Materials
Special Nuclear Material
Source Material
Byproduct Material
Med, Ind, & Academic Uses
Source Materials Facilities
Uranium Recovery
Fuel Cycle Facilities
Materials Transportation
Nuclear Materials Quick Links
Radioactive Waste
Decommissioning of Nuclear Facilities
Low-Level Waste
Waste Incidental to Reprocessing
High-Level Waste
Uranium Mill Tailings
Low-Level Waste Disposal
High-Level Waste Disposal
Storage of Spent Nuclear Fuel
Transporation of Spent Nuclear Fuel
Radioactive Waste Quick Links
Nuclear Security
Domestic Safeguards
Information Security
Radioactive Material Security
Contact Us
Public Meetings & Involvement
The NRC Approach to Open Government
About Meetings Open to the Public
Conferences & Symposia
Documents for Comment
Facilitating Stakeholder Involvement
NRC Information Quality Guidelines
Subscribe to E-mail Updates
Commission Schedule
Public Meeting Schedule
Adjudications (Hearings)
NRC Library
Basic References
Document Collections
ADAMS Public Documents
Public Document Room
Get Copies of Documents
FOIA & Privacy Act Requests
Photos & Video
Records Management
Withholding of Sensitive Information
FAQ Index
Electronic Hearing Docket
About NRC
The Commission
Organization & Functions
Governing Legislation
Plans, Budget, & Performance
Locations
History
Values
Direction-Setting & Policymaking
Radiation Protection
Fire Protection
Safety Culture
How We Regulate
Emergency Preparedness & Response
Public Affairs
Congressional Affairs
International Programs
State & Tribal Programs
Alternative Dispute Resolution Programs
Civil Rights
Contact Us
Career Opportunities
Contracting Opportunities
Grant Opportunities
Print
Home > NRC Library  > Document Collections > Inspector General
Reports > 1998 >  OIG/98A-03
OIG/98A-03 - Procurement Streamlining Measures Implemented: Improvements Can Be Made
June 10, 1998
MEMORANDUM TO:
L. Joseph Callan
Executive Director for Operations
FROM:
Thomas J. Barchi
Assistant Inspector General for Audits
SUBJECT:
AUDIT REPORT - PROCUREMENT STREAMLINING MEASURES IMPLEMENTED:IMPROVEMENTS
CAN BE MADE
Attached is the Office of the Inspector General's audit report entitled "Procurement Streamlining Measures Implemented: Improvements Can Be Made."  This report reflects the results of the OIG's audit of the agency's procurement streamlining initiative.
On May 12, 1998, we provided a draft of this report to the Deputy Executive Director for Management Services for review and comment.  On May 29, 1998, the Deputy Executive Director for Management Services responded to our draft report and agreed with the report's recommendation.
Please contact me on 415-5915 if we can assist you further in this matter.
Attachment: As stated
Contents:
Introduction
Background
Findings
Conclusion
Recommendation
Agency Comments
Objectives, Scope, and Methodology
Major Contributors to this Report
Glossary:  Office of the Inspector General Products
Investigative
Audit
Regulatory
Report Synopsis
As a result of Vice President Gore's National Performance Review (NPR), selected Federal agencies, including the U.S. Nuclear Regulatory Commission (NRC), were designated as procurement reinvention laboratories in 1993.  NRC used its NPR laboratory status to streamline its procurement process in an effort to reduce procurement lead times and remove some of the burdensome aspects of the contracting process.  The purpose of our review was to assess the efficiency and effectiveness of NRC's procurement streamlining process.
Our review found that streamlining appears to have had a positive effect on NRC's procurement process.  Almost all fiscal year 1997 procurements used one or more streamlining measures.  In addition, NRC's Contract Tracking System reports a reduction in procurement lead times when streamlining measures were applied.  We also found that the agency could take steps to improve the streamlining data it tracks.  NRC accounts for the time saved using streamlining measures primarily by applying estimated savings criteria that were established in 1994.  Our review found that NRC has not reassessed these savings since that time.  We believe the agency should periodically reassess its estimated savings to ensure that the reported benefits are accurate and that tracking them remains worthwhile.
Introduction
In 1993, at the request of the U.S. Nuclear Regulatory Commission (NRC), Vice President Gore's National Performance Review(1) (NPR) designated the NRC as a procurement reinvention laboratory.  NPR defines reinvention laboratories as:
. . . innovative organizations or activities that are established to test or prototype new "reinventing government" initiatives.  The reinvention laboratories are empowered to begin experimenting with radical new ways of doing business, and share their ideas, successes and lessons across government.
As a laboratory, NRC developed and implemented streamlining measures for the
purpose of reducing contract lead times and removing some of the burdensome
aspects of the competitive contracting process. The objective of our review
was to evaluate the efficiency and effectiveness of the streamlining process.
See Appendix I for more details on our objective, scope, and methodology.
Background
In 1994, NRC modified its procurement process to incorporate the use of 22 streamlining measures which could result in time saved in completing procurement milestones.  The Division of Contracts and Property Management (DCPM), Office of Administration, assigned estimated savings, stated in days, to each streamlining measure.  The 22 streamlining measures and their estimated savings are described in Appendix II.
While most of the streamlining measures are allowable under Federal Acquisition Regulation (FAR), one measure requires a FAR waiver from the Office of Federal Procurement Policy (OFPP) and the Small Business Administration.  As a result of the waiver, NRC is not required to advertise its technical assistance/research contracts in the Commerce Business Daily.  NRC requests a renewal of the waiver on a biannual basis.
NRC program offices, such as the Office of Nuclear Reactor Regulation, Office of Nuclear Regulatory Research, and Office of Nuclear Material Safety and Safeguards, assign staff to participate in competing the procurement and evaluating the resulting proposals.(2)  DCPM also assigns a contracting officer and contract specialist to each procurement.  The contracting officer coordinates with the contract specialist to ensure that all possible streamlining measures are considered.  Streamlining measures are discussed by the DCPM contract specialist and the program office representatives when procurement milestones are established.  At that time, the contract specialist will recommend the use of appropriate streamlining measures to the program office representatives.  The agreed upon streamlining measures are incorporated into the procurement milestones.
NRC has been active in overall Federal procurement streamlining initiatives.  NRC participated in several OFPP procurement streamlining pilot projects and contributed to OFPP's procurement best practices guides.  For example, NRC participated in the Procurement Innovation Working Group and contributed to the OFPP-sponsored "Guidelines for the Use of Oral Presentations."  NRC has also contributed to OFPP's "A Guide to Best Practices for Past Performance" and "A Guide to Best Practices for Contract Administration."
Findings
NRC appears to have made progress in reducing procurement lead times and removing some of the burdensome aspects of contracting.  In fiscal year (FY) 1997, NRC issued 37 new contract awards totaling over $18 million.  Of those totals, 33 contracts totaling over $17 million used one or more streamlining measures.  According to DCPM's Contract Tracking System, total savings as a result of applying streamlining measures to those 33 FY 1997 contracts totaled 1,333 days, averaging about 40 days per procurement.  However, NRC could not support the estimated savings assigned to each streamlining measure.  Therefore, we could not verify the exact number of total days saved as a result of streamlining.  This demonstrates NRC's need to reevaluate the estimated savings for each streamlining measure to ensure that the total savings reported are accurate and that tracking them remains worthwhile.
DCPM has not reassessed its estimated savings since developing them in 1994.  At that time, DCPM assigned estimated savings to each of the 22 streamlining measures for the purpose of tracking streamlining savings for each procurement.  For example, awarding a contract without discussions is estimated to save 25 days.(3)  However, DCPM did not document the basis for these estimated savings and has not revisited them to ensure that they are accurate or that tracking them is still beneficial.
Although DCPM encourages its contract specialists to use actual time savings when reporting streamlining results, we found that estimated savings are almost exclusively used in lieu of actuals.  DCPM told us that it plans to continue tracking streamlining savings and would like for the savings to be as accurate as possible.
In addition, several streamlining measures which were innovative in 1994 are now common practice.  For example, two streamlining measures promote sharing documents electronically.  Currently, e-mail and an agency wide network make the sharing of documents within program offices and between program offices and DCPM a common occurrence.  We discussed this with DCPM officials and they agreed that these streamlining measures should no longer be considered streamlining and further tracking is probably unnecessary.  Further, there are other streamlining measures that produce no noticeable savings.  Examples include the streamlining of the determinations and finding memoranda which only accounted for 4.5 of the 1,333 days saved through streamlining in FY 1997.  We believe DCPM should review all of its streamlining measures to ensure that tracking them remains worthwhile.
Conclusion
We found that NRC has benefitted from its procurement streamlining program.  However, NRC has not reassessed the estimated savings assigned to each streamlining measure since 1994.  Therefore, NRC cannot be certain whether the savings it is recording are accurate or that tracking them is beneficial.
Recommendation
To increase the efficiency and effectiveness of NRC's procurement streamlining efforts, we recommend that DCPM reassess the streamlining measures to ensure that estimated savings are accurate and that tracking them is worthwhile.
Agency Comments
On May 29, 1998, the Deputy Executive Director for Management Services responded to our draft report and agreed with the report's recommendation.
Objectives, Scope, and Methodology
The objective of our review was to evaluate the efficiency and effectiveness of the U.S. Nuclear Regulatory Commission's (NRC) procurement streamlining process.  We focused our review on fiscal years 1996 and 1997 procurements which incorporated one or more streamlining measures.
We held interviews and discussions with NRC personnel responsible for setting procurement policy and facilitating the procurement process.  We also interviewed program office personnel who participated in streamlined procurements.  In addition, we met with an Office of Federal Procurement Policy representative to discuss procurement streamlining best practices throughout the Government.  We also reviewed National Performance Review information regarding other agencies' procurement reinvention efforts.
We reviewed NRC's management controls regarding the application of streamlining measures and the tracking and reporting of streamlining measure usage.  To perform our review of controls, we interviewed management and staff from the Division of Contracts and Property Management and reviewed pertinent documentation.
We conducted our review at NRC Headquarters from December 1997 through March 1998, in accordance with generally accepted Government auditing standards.
Streamlining Measure
Description
Estimated Time Saved
by Use
1. Electronic transmittal of the Statement of Work.
Statement of Work is e-mailed to the contract specialist, allowing them
direct access to the document.
4 days
2. Use of commercial product description.
The Statement of Work is written for the purchase of a product or service
using a commercial product description.
1 day
3. Delegation of authority to the Director, DCPM.
Procurement authority between $750,001 and $3,000,000 has been delegated
to the Director, DCPM.
5 days
4. The Justification for Other than Full and Open Competition
(JOFOC) authority is delegated to the DCPM Branch Chief.
This authority is delegated for technical assistance procurements between
$2,501 and $100,000, or for other procurements between $10,000 and $100,000.
3 days
5. Waiver of the Commerce Business Daily (CBD) notice.
The CBD notice can be waived for technical assistance or research procurements.
5 days
6. Set deadline for proposer's questions.
The solicitation contains a deadline for proposer's questions prior to
the due date for proposals which will normally permit questions to be answered
without extending the solicitation period.
14 days
7. Reduce proposal preparation time.
The solicitation period is set at less than the period of time normally
required by the Federal Acquisition Regulation (FAR). This is permissible
under the procurement reinvention laboratory for procurements not advertised
in the CBD.
10 days
8. Less than 3 Source Evaluation Panel (SEP) technical members
used in developing the Request for Procurement Action.
Less than 3 persons are formally part of the SEP, but they may consult
with additional advisors.
10 days
9. Simplified evaluation criteria using past performance.
The evaluation criteria has been simplified, and/or past performance is
used as criteria.
0.5 days
10. Limit the number of pages in the proposal.
The number of pages in the proposal has been limited to less than 100
pages.
4 days
11. Prohibit foldouts, sales brochures, videos, etc.
Folders, brochures, and videos have been prohibited from the submission.
1 day
12. Use of commercial product description.
Submittals are evaluated based on a commercial product description.
1 day
13. Limit competition to known sources.
This is available for only competitive research and technical services
procurements.
1.5 days
14. Oral proposals.
Oral, not written, proposals are used.
5 days
15. Waive audit requirements for procurements over $500,000.
The contracting officer waives the audit requirement previously mandatory
for all firms with which NRC negotiates.
15 days
16. Award without discussions.
Formal discussions with the proposer(s) are not held between receipt of
the proposal(s) and award.
25 days
17. Less than 3 SEP technical members for procurements in
excess of $500,000.
Less than 3 SEP technical members are used to evaluate the proposals.
10 days
18. Simplified evaluation criteria - past performance.
The proposal evaluation criteria has been simplified, and/or past performance
is used.
1.5 days
19. Electronic coordination of the Final Evaluation Report.
The Final Evaluation Report is e-mailed, allowing the contract specialist
direct access to the document during coordination.
3 days
20. Abolition of the determination and findings for cost type
contracts.
A determinations and findings memorandum is no longer required for cost
type contracts.
0.125 days
21. Delegation of authority to the DCPM Branch Chief.
Procurement authority between $500,001 and $750,000 is delegated to the
DCPM Branch Chief.
5 days
22. Simplified determinations and findings for other than
sealed bid contracts.
If a contract is negotiated, a note to the file suffices in lieu of a
determinations and findings memorandum.
0.125 days
Major Contributors to this Report
Corenthis B. Kelley Team Leader
Judy L. Leonhardt Senior Auditor
George T. Pourchot Audit Manager
Glossary: Office of the Inspector General Products
Investigative
1. INVESTIGATIVE REPORT - WHITE COVER
An Investigative Report documents pertinent facts of a case and describes available evidence relevant to allegations against individuals, including aspects of an allegation not substantiated.  Investigative reports do not recommend disciplinary action against individual employees. Investigative reports are sensitive documents and contain information subject to the Privacy Act restrictions.  Reports are given to officials and managers who have a need to know in order to properly determine whether administrative action is warranted.  The agency is expected to advise the OIG within 90 days of receiving the investigative report as to what disciplinary or other action has been taken in response to investigative report findings.
2. EVENT INQUIRY - GREEN COVER
The Event Inquiry is an investigative product that documents the examination of events or agency actions that do not focus specifically on individual misconduct.  These reports identify institutional weaknesses that led to or allowed a problem to occur.  The agency is requested to advise the OIG of managerial initiatives taken in response to issues identified in these reports but tracking its recommendations is not required.
3. MANAGEMENT IMPLICATIONS REPORT (MIR) - MEMORANDUM
MIRs provide a "ROOT CAUSE" analysis sufficient for managers to facilitate
correction of problems and to avoid similar issues in the future. Agency tracking
of recommendations is not required.
Audit
4. AUDIT REPORT - BLUE COVER
An Audit Report is the documentation of the review, recommendations, and findings resulting from an objective assessment of a program, function, or activity.  Audits follow a defined procedure that allows for agency review and comment on draft audit reports.  The audit results are also reported in the OIG's "Semiannual Report" to the Congress.  Tracking of audit report recommendations and agency response is required.
5. SPECIAL EVALUATION REPORT - BURGUNDY COVER
A Special Evaluation Report documents the results of short-term, limited assessments.
It provides an initial, quick response to a question or issue, and data to determine
whether an in-depth independent audit should be planned. Agency tracking of
recommendations is not required.
Regulatory
6. REGULATORY COMMENTARY - BROWN COVER
Regulatory Commentary is the review of existing and proposed legislation, regulations, and policies so as to assist the agency in preventing and detecting fraud, waste, and abuse in programs and operations.  Commentaries cite the IG Act as authority for the review, state the specific law, regulation or policy examined, pertinent background information considered and identifies OIG concerns, observations, and objections.  Significant observations regarding action or inaction by the agency are reported in the OIG Semiannual Report to Congress.  Each report indicates whether a response is required.
1. Currently referred to as the National Partnership for Reinventing Government.
2. As members of the Source Evaluation Panel (SEP).
3. Estimated savings for each streamlining measure are shown
in Appendix II.
Page Last Reviewed/Updated Thursday, March 29, 2012
Home
News Releases
Event Reports
ADAMS
Open Gov
Digital Government
Students & Teachers
Photos & Video
For Developers
About Us
Strategic Plan
Budget & Performance
Perf & Accountability Rept
History of the NRC
Career Opportunities
NRC Ethics
Agency Status
Contact Us
Popular Documents
Info Digest
Factsheets & Brochures
Forms
Electronic Submittals Application
NRC Reports – NUREG
NRC Regulations – 10-CFR
Inspection Reports
Plain Writing
Enforcement Actions
RULEMAKING
Stay Connected
Blog
Chat
Twitter
YouTube
Flickr
GovDelivery
RSS
Regulations.gov USA.gov Recovery FOIA No Fear EEO Inspector General  Site Map Accessibility Privacy Policy Site Disclaimer For Employees